               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03414-46


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 VA Central Iowa Health Care System 

         Des Moines, Iowa 





January 21, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         Medication Management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              17

  F. Report Distribution .............................................................................................            18

  G. Endnotes ...........................................................................................................         19





VA OIG Office of Healthcare Inspections
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of November 18, 2013, at the
following CBOCs which are under the oversight of the VA Central Iowa Health Care
System and Veterans Integrated Service Network 23:

	   Fort Dodge CBOC, Fort Dodge, IA

	   Marshalltown CBOC, Marshalltown, IA

Review Results: We conducted four focused reviews and had no findings for the
Alcohol Use Disorder, Medication Management, and Designated Women’s Health
Provider Proficiency reviews. However, we made recommendations in the following
review area:

Environment of Care. Ensure that:

	   Processes are improved to ensure review of the hazardous materials inventory
     occurs every 6 months at the Marshalltown CBOC.

	   Sharps containers are secured at the Fort Dodge CBOC.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–16, for the full text of the Directors’ comments.) We consider
recommendation 2 closed. We will follow up on the planned actions for the open
recommendation until it is completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                           Healthcare Inspections


 
 
 
  



VA OIG Office of Healthcare Inspections                                                       i
                          CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                         CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


Table 1. CBOC/PCC Focused Reviews and Study Populations

     Review Topic                                     Study Population
         AUD                   All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiency           All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                               CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Fort Dodge and
Marshalltown CBOCs. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             The inventory of hazardous materials at the
       inventory of hazardous materials and waste        Marshalltown CBOC was not reviewed for
       that it uses, stores, or generates.               accuracy twice within the prior 12 months.
       An alarm system or panic button is installed in
       high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
 X     Sharps containers are secured.                    Sharps containers were not secured at the Fort
                                                         Dodge CBOC.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building is
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access of fire extinguishers is unobstructed.
       The CBOC has signs identifying the location
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                   3
                               CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


 NM                    Areas Reviewed                                      Findings
       All medications are secured from
       unauthorized access.
       Personally Identifiable Information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in the
       exam room.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the exam room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       VA and Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercises.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. 	 We recommended that processes are improved to ensure review of the hazardous
     materials inventory occurs twice within a 12-month period at the Marshalltown CBOC.

2. 	 We recommended that sharps containers are secured at the Fort Dodge CBOC.




VA OIG Office of Healthcare Inspections                                                                4
                               CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 3. AUD

NM                     Areas Reviewed                                      Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received MI training within 12 months of
       appointment to PACT.
       CBOC/PCC RN Care Managers have
       received National Center for Health Promotion
       and Disease Prevention approved health
       coaching training (most likely TEACH for
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                5
                               CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                      Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                6
                               CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                                7
                                                                   CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                                                                 Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                Uniquesd                                     Encountersd

                            Station                   CBOC
      Location     State               Localitye                  MHg         PCh        Otheri       All       MHg         PCh       Otheri        All
                               #                       Sizef
    Mason City      IA      636GC        Rural       Mid-Size      597       4,011       3,136      4,443       6,931      9,326      13,086      29,343
    Fort Dodge      IA      636GK        Rural       Mid-Size      441       3,986       1,561      4,376       2,766      7,441       3,541      13,748
    Knoxville       IA      636GR        Rural       Mid-Size      792       1,931       1,830      2,506      13,478      3,841       7,910      25,229
    Marshalltown    IA      636GD        Rural       Mid-Size      342       1,460        908       1,807       1,726      4,403       3,158      9,287
    Carroll         IA      636GM        Rural        Small        176       1,164        722       1,293        944       2,907       1,787      5,638
 

 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    8
                                        CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services provided
at each CBOC.j

                CBOC             Specialty Care Servicesk            Ancillary Servicesl          Tele-Health Servicesm
    Mason City                           Optometry                       Audiology                   Tele Primary Care
                                         Oncology                   Electrocardiography
                                                                     MOVE! Programn
                                                                 Diabetic Retinal Screening
                                                                        Social Work
    Fort Dodge                                                           Audiology                   Tele Primary Care
                                                                    Electrocardiography
                                                                        Social Work
    Knoxville                            Optometry                       Audiology                   Tele Primary Care
                                          Podiatry                  Electrocardiography
                                        Dermatology                      Pharmacy
                                                                 Diabetic Retinal Screening
                                                                          Nutrition
    Marshalltown                         Optometry                       Audiology                   Tele Primary Care
                                                                      MOVE! Program
                                                                    Electrocardiography
    Carroll                                   ---                                                    Tele Primary Care
                                                                          Audiology




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic Stops with 

a count ≥ 100 encounters during the July 1, 2012 through June 30, 2013 timeframe at the specified CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Tele health program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 




VA OIG Office of Healthcare Inspections                                                                                      9
                                                                             CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                                                                           Appendix B


                                                                   PACT Compass Metrics

                                                      FY 2013 Average 3rd Next Available in PC Clinics
                                35.0

                                30.0
    Average Number of Days




                                25.0

                                20.0

                                15.0

                                10.0

                                 5.0

                                 0.0
                                                                                            Marshalltown
                                        VHA Total   Des Moines (636A6) Mason City (636GC)                   Fort Dodge (636GK)   Carroll (636GM)     Knoxvi
                                                                                              (636GD)
                             OCT FY13     14.6             17.9               17.7               5.4               29.1                4.6
                             NOV FY13     15.2             20.4               19.5               7.5               23.5                6.7
                             DEC FY13     13.8             14.7               22.0               6.8               8.6                 2.7
                             JAN FY13     14.0             15.2               23.7               1.0               5.9                 6.2
                             FEB FY13     14.8             12.7               24.1               6.6               26.7                4.5
                             MAR FY13     13.3             13.5               10.3               2.3               17.4                8.4
                             APR FY13     14.4             15.5               18.3               2.4               17.0               12.0
                             MAY FY13     16.0             16.1               19.1               4.4               16.2               14.3
                             JUN FY13     14.2             16.6                5.3               2.0               6.5                13.3
       JUL FY13             14.6               18.1                   11.3                  4.7                  17.3                   4.0
 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                10
                                                                                        CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                                                            FY 2013 Established PC Prospective Wait Times 7 Days
                                            100%



                                            80%
         Percentage of Patients Scheduled
           Within 7 Days  of Desired Date




                                            60%



                                            40%



                                            20%



                                             0%
                                                   OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13 JUL FY13 AUG FY13 SEP FY13
     VHA Total                                      83.5%    81.1%    82.4%    82.6%    83.2%    83.6%    84.0%    84.0%    84.1%    84.3%    84.5%    84.7%
     Des Moines (636A6)                             86.3%    82.6%    82.3%    80.4%    81.3%    82.5%    83.6%    82.2%    80.3%    82.0%    83.6%    86.4%
     Mason City (636GC)                             86.2%    95.3%    63.4%    57.9%    63.3%    64.5%    62.2%    56.9%    54.2%    60.0%    74.2%    74.0%
     Marshalltown (636GD)                           93.3%    98.0%    97.1%    96.7%    94.1%    93.2%    94.8%    94.1%    96.3%    91.7%    88.1%    96.2%
     Fort Dodge (636GK)                             68.5%    66.3%    65.6%    65.8%    64.3%    63.4%    63.7%    66.0%    69.2%    68.1%    72.9%    74.4%
     Carroll (636GM)                                96.3%    97.8%   100.0%    94.8%    96.3%    95.2%    90.8%    80.9%    92.9%    94.8%    89.2%    94.7%
     Knoxville (636GR)                              92.3%    93.8%    94.6%    96.4%    97.2%    100.0%   100.0%   100.0%   97.8%    96.8%    97.2%    97.2%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                          11
                                                                                                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


                                                                           FY 2013 Ratio of ER Encounters While on Panel to

                                                                           PC Encounters  While on Panel (FEE ER Included)

                                                            28%
             Percentage of ER Encounters to PC Encounters   26%
                                                            24%
                                                            22%
                                                            20%
                                                            18%
                                                            16%
                                                            14%
                                                            12%
                                                            10%
                                                            8%
                                                            6%
                                                            4%
                                                            2%
                                                            0%
                                                                  OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13 JUL FY13 AUG FY13 SEP FY13
        VHA Total                                                  16.3%    16.3%    16.4%    16.3%      16.3%   16.3%    16.1%   16.1%    16.0%    15.9%    15.8%    15.7%
        Des Moines (636A6)                                         26.7%    26.9%    27.0%    26.7%      26.7%   26.2%    25.9%   26.1%    26.2%    26.2%    26.4%    26.4%
        Mason City (636GC)                                         4.5%      4.2%    4.1%      4.1%       4.0%    3.8%    3.6%     3.7%     3.9%     3.7%     3.3%     3.1%
        Marshalltown (636GD)                                       6.1%      6.9%    6.7%      6.3%       6.4%    6.5%    6.3%     6.5%     6.9%     6.9%     6.8%     6.8%
        Fort Dodge (636GK)                                         3.5%      3.3%    3.3%      3.1%       3.1%    3.1%    3.1%     3.2%     3.1%     2.9%     2.7%     2.8%
        Carroll (636GM)                                            2.4%      3.2%    3.6%      2.9%       3.0%    3.0%    3.4%     3.3%     3.5%     3.4%     3.1%     3.0%
        Knoxville (636GR)                                          12.8%    12.3%    12.1%    11.8%      11.5%   11.2%    10.7%   11.3%    11.1%    11.0%    10.5%     9.8%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                                         12
                                                                     CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA



                                       FY 2013 2‐Day Contact Post Disharge Ratio
       100%

        90%

        80%

        70%

        60%

        50%

        40%

        30%

        20%

        10%

         0%
                                                                             Marshalltown
                    VHA Total      Des Moines (636A6) Mason City (636GC)                      Fort Dodge (636GK)     Carroll (636GM)   Knoxville (636GR)
                                                                               (636GD)
     OCT FY13         52.8%              30.9%               25.0%               50.0%               12.5%               0.0%               25.0%
     NOV FY13         52.9%              34.8%               39.1%               64.3%               12.5%               40.0%              25.0%
     DEC FY13         51.5%              43.5%               38.9%               44.4%               16.7%               25.0%              23.1%
     JAN FY13         57.2%              40.1%               53.8%               0.0%                8.3%                25.0%              81.8%
     FEB FY13         60.4%              50.4%               61.5%               85.7%               20.0%              100.0%              84.6%
     MAR FY13         64.4%              60.0%               45.8%              100.0%               16.7%              100.0%              85.7%
     APR FY13         65.5%              56.6%               46.7%               73.3%               0.0%               100.0%              77.8%
     MAY FY13         66.1%              50.8%               78.9%               85.7%               27.3%              100.0%              87.5%
     JUN FY13         70.1%              52.3%               40.0%              100.0%               6.7%               100.0%              44.4%
     JUL FY13         71.1%              50.3%               33.3%               93.3%               16.7%               80.0%              63.2%
     AUG FY13         72.7%              58.8%               20.0%              100.0%               6.7%               100.0%              77.8%
     SEP FY13         68.9%              58.3%               33.3%               50.0%               20.0%              100.0%              64.3%

 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
 patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
 this metric.

VA OIG Office of Healthcare Inspections                                                                                                                    13
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


       Date:           January 2, 2014

       From:           Acting Director, VA Midwest Health Care Network (10N23)

       Subject:        CBOC and PCC Reviews of the VA Central Iowa Health
                       Care System, Des Moines, IA

       To:             Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I concur with the planned actions to be taken by VA Central Iowa Health
       Care System regarding the two identified recommendations.




       Steven C. Julius, M.D.




VA OIG Office of Healthcare Inspections                                                      14
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


       Date:           January 2, 2014

       From:           Director, VA Central Iowa Health Care System (636A6/00)

       Subject:        CBOC and PCC Reviews of the VA Central Iowa Health
                       Care System, Des Moines, IA

       To:             Director, VA Midwest Health Care Network (10N23)

       1. I have reviewed and concur with the findings and recommendations in
       the draft report of the Office of the Inspector General Community Based
       Outpatient Clinic and Primary Care Clinic Review conducted the week of
       November 18, 2013.

       2. Corrective action plans have been established with target completion
       dates, as detailed in the attached report.


       (original signed by:)
       Fred Bahls MD, Phd

       JUDITH JOHNSON-MEKOTA, FACHE
       Director




VA OIG Office of Healthcare Inspections                                                      15
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the
Marshalltown CBOC.

Concur

Target date for completion: February 1, 2014

Facility response: A hazardous material inventory has been completed at the
Marshalltown CBOC. The Occupational Safety and Health Manager/designee will
ensure that a review of the inventory is completed twice within a 12-month period.
Medical Center policy will be updated to reflect a biannual review.

Recommendation 2. We recommended that sharps containers are secured at the Fort
Dodge CBOC.

Concur

Target date for completion: Completed - December 31, 2013

Facility response: All sharp containers have been secured at the Fort Dodge CBOC.
Physical inspection ensuring security of sharp containers will occur as part of recurring
environment of care rounds conducted routinely at the CBOC, both on a weekly basis
by CBOC staff and biannually by the VA Central Iowa Health Care System multi-
disciplinary EOC team.




VA OIG Office of Healthcare Inspections                                                      16
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                    Appendix E


                OIG Contact and Staff, Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Cheryl Walker, ARNP, MBA, Team Leader
Contributors
Other                   Michael Bishop, MSW
Contributors            Lin Clegg, PhD
                        Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Clarissa Reynolds, CNHA, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Ann Ver Linden, RN, MBA
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      17
                      CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Director, VA Central Iowa Health Care System (636A6/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Chuck Grassley, Tom Harkin
U.S. House of Representatives: Bruce L. Braley, Steve King, Tom Latham,
 David Loebsack



This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      18
                        CBOC and PCC Reviews at VA Central Iowa Health Care System, Des Moines, IA
                                                                                      Appendix G

                                             Endnotes 


1
  References used for the EOC review included:
  US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
  US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
   Privacy Rule, August 14, 2002.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
    for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
    Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 




VA OIG Office of Healthcare Inspections                                                                  19
